<html>
<title> - THE DISRUPTER SERIES: THE FAST-EVOLVING USES AND ECONOMIC IMPACTS OF DRONES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 THE DISRUPTER SERIES: THE FAST	EVOLVING USES AND ECONOMIC IMPACTS OF 
                                 DRONES

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2015

                               __________

                           Serial No. 114-103
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                             _____________
                             
                             
                      U.S. GOVERNMENT PUBLISHING OFFICE
99-705                        WASHINGTON : 2016                     
                   
________________________________________________________________________________________                    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ee9fee1ceedfbfdfae6ebe2fea0ede1e3a0">[email&#160;protected]</a>  
                 
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Missouri               JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

           Subcommittee on Commerce, Manufacturing, and Trade

                       MICHAEL C. BURGESS, Texas
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
LEONARD LANCE, New Jersey              Ranking Member
  Vice Chairman                      YVETTE D. CLARKE, New York
MARSHA BLACKBURN, Tennessee          JOSEPH P. KENNEDY, III, 
GREGG HARPER, Mississippi                Massachusetts
BRETT GUTHRIE, Kentucky              TONY CARDENAS, California
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  G.K. BUTTERFIELD, North Carolina
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            FRANK PALLONE, Jr., New Jersey (ex 
SUSAN W. BROOKS, Indiana                 officio)
MARKWAYNE MULLIN, Oklahoma
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    70

                               Witnesses

Joshua M. Walden, Senior Vice President, General Manager, New 
  Technology Group, Intel Corporation............................     8
    Prepared statement...........................................    11
    Answers to submitted questions...............................    73
John Villasenor, Professor of Public Policy, Electrical 
  Engineering and Management, Luskin School of Public Affairs, 
  University of California, Los Angeles..........................    27
    Prepared statement...........................................    29
    Answers to submitted questions...............................    76
Margot Kaminski, Assistant Professor, Moritz School of Law, Ohio 
  State University...............................................    37
    Prepared statement...........................................    40
    Answers to submitted questions...............................    80
Brian Wynne, President and CEO, Association for Unmanned Vehicle 
  Systems International..........................................    48
    Prepared statement...........................................    50
    Answers to submitted questions...............................    88

                           Submitted material

Statement of the Motion Picture Association of America...........    71

 
 THE DISRUPTER SERIES: THE FAST-EVOLVING USES AND ECONOMIC IMPACTS OF 
                                 DRONES

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2015

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2123 Rayburn House Office Building, Hon. Michael Burgess 
(chairman of the subcommittee) presiding.
    Members present: Representatives Burgess, Lance, Blackburn, 
Harper, Bilirakis, Brooks, Mullin, Schakowsky, Welch, and 
Pallone (ex officio).
    Staff present: Leighton Brown, Press Assistant; Rebecca 
Card, Assistant Press Secretary; James Decker, Policy 
Coordinator, Commerce, Manufacturing, and Trade; Andy 
Duberstein, Deputy Press Secretary; Graham Dufault, Counsel, 
Commerce, Manufacturing, and Trade; Melissa Froelich, Counsel, 
Commerce, Manufacturing, and Trade; Paul Nagle, Chief Counsel, 
Commerce, Manufacturing, and Trade; Dan Schneider, Press 
Secretary; Olivia Trusty, Professional Staff, Commerce, 
Manufacturing, and Trade; Dylan Vorbach, Legislative Clerk, 
Commerce, Manufacturing, and Trade; Michelle Ash, Minority 
Chief Counsel, Commerce, Manufacturing, and Trade; Christine 
Brennan, Minority Press Secretary; Jeff Carroll, Minority Staff 
Director; Lisa Goldman, Minority Counsel, Commerce, 
Manufacturing, and Trade; and Diana Rudd, Minority Legal 
Fellow.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. The subcommittee on Commerce, Manufacturing 
and Trade will now come to order and the chair recognizes 
himself for 5 minutes for an opening statement and, again, good 
morning to all and welcome to our hearing on examining unmanned 
aerial systems, or drones.
    These are poised to up-end the status quo in many sectors 
across the country.
    This hearing is the latest installment of our Disrupter 
Series covering a variety of disruptive technologies that are 
literally redefining our lives and improving our economic 
condition.
    This hearing is timely. Tomorrow, the National 
Telecommunications and Information Administration will hold an 
important gathering in its series of multi stakeholder meetings 
to develop privacy best practices for drones, and the Federal 
Aviation Authority has also set tomorrow as the deadline for 
recommendations from the Drone Registry Task Force.
    Drones promise to make life easier, make life safer, make 
life less costly for workers in a wide variety of industries. 
The American Farm Bureau has forecast that farmers will be 
using drone services to monitor their crops and could see 
significant return on investment.
    The technology now exists for telecommunications and 
utility employees to send up drones up to inspect telephone 
poles and monitor their findings from the truck.
    Insurance adjusters sent out to inspect a claimant's home 
for hail damage could use a drone to conduct the examination 
without needing a ladder to walk around on the roof. And 
everyone from movie studios to broadcasters have interests. 
With nearly a million units expected to be sold, consumer 
drones are predicted to be the next wave in holiday purchases 
in just a few weeks.
    I'm sure many of us here today have noticed that trend as 
we start our holiday shopping. Check your gutters or a leak on 
your roof without leaving the ground, no problem.
    The sector-specific benefits of drones add up to a massive 
economic impact. According to one study by the Association for 
Unmanned Vehicles Systems International--one of our witnesses 
today--drones will produce about $82 billion in growth during 
the next 10 years as they are integrated into our National 
Airspace System.
    The study also predicts the addition of 100,000 jobs over 
those 10 years, which encompasses drone makers, software 
engineers, suppliers, researchers and other workers that would 
support expanded drone production and use.
    To realize these benefits, the Federal Aviation 
Administration is working with stakeholders to safely integrate 
drones into the American airspace.
    Simultaneously, the National Telecommunications and 
Information Administration is holding multi stakeholder 
meetings with the goal of producing industry best practices.
    There are important questions around privacy laws and 
safety and United States companies like Intel are working to 
develop solutions that would enhance safety automatically, 
which no regulator could produce.
    In fact, I would be more worried that overregulation on 
safety could prevent the investment, testing and research 
needed to develop market-driven solutions.
    With the advent of drones, many have expressed concerns 
that they present novel privacy issues. Certainly, drones can 
go where people can't.
    A neighbor can fly a drone over your fence and pester you 
and invade your privacy, and there have been disputes ending in 
drones being shot out of the air by an annoyed citizen.
    There are interesting questions around whether how and when 
and under what circumstances a drone owner can be identified 
and held to account for his or her behavior.
    Those questions are now being addressed at the FAA as part 
of the development of its registry. I should note that I share 
the concerns of many with requiring small recreational drones 
to be registered with the federal government.
    Such an approach would involve casual users in a major 
government bureaucracy with seemingly little benefit. As 
regulators prepare to integrate drones into the airspace, it is 
clear that safety has to be the number-one priority.
    But cutting-edge drone testing and evaluation is occurring 
overseas because the current process to approve commercial 
drone use is both restrictive and cumbersome in the United 
States.
    I do want to thank our witnesses for being here this 
morning. I'm going to yield the balance of my time to Mr. 
Lance.
    Mr. Lance. Thank you, Chairman Burgess, for holding this 
hearing and welcome to the distinguished panel.
    Earlier this week, a drone crashed into a car while flying 
over an oil refinery in Linden, New Jersey. I used to represent 
a portion of Linden before the reconfiguration of the 
congressional districts. Linden is one of the major refining 
locations in the United States.
    The FBI is currently investigating whether or not this was 
an accident and is tracking down the operator who fled the 
scene. This is the second time in two months that a drone has 
crashed in Linden, which is located 10 minutes from Newark 
Liberty International Airport, one of the three major airports 
serving the New York metropolitan region.
    While so far there is no evidence of ill intent in either 
case, these incidents bring up important concerns regarding the 
safety of recreational drones and the possibility for bad 
actors to repurpose them to cause harm to others.
    I look forward to discussing these concerns and possible 
solutions as well as the potential benefits of UAVs with this 
distinguished panel.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    Good morning and welcome to our hearing examining unmanned 
aerial systems-or drones, which are poised to upend the status 
quo in sectors across our economy.
    This is the latest installment of our Disrupter Series 
covering a variety of disruptive technologies that are 
redefining our lives and improving our economic condition.
    This hearing is timely. Tomorrow, the National 
Telecommunications and Information Administration will hold an 
important gathering in its series of multistakeholder meetings 
to develop privacy best practices for drones.
    And the FAA has also set tomorrow as the deadline for 
recommendations from the Drone Registry Task Force.
    Drones promise to make life easier, safer, and less costly 
for workers in a wide array of industries.
    The American Farm Bureau has forecast that farmers using 
drone services to monitor their crops could see a return on 
investment of $12 per acre for corn, $2.60 for an acre of 
soybeans, and $2.30 per acre of wheat.
    The technology now exists for telecommunications and 
utility employees to send drones up to inspect telephone poles, 
monitoring their findings from the truck.
    Insurance adjusters sent out to inspect a claimant's home 
for hail damage could use drones to conduct the examination 
without needing to climb a ladder and walk around a slippery 
roof. And everyone from movie studios to broadcasters have 
interests too. And with nearly a million units expected to be 
sold, consumer drones are predicted to be the next wave in 
holiday purchases this year. I'm sure many of us here today 
have noticed that trend as we start gift shopping.
    Check your gutters or a leak on your roof without leaving 
the ground, no problem.
    The sector-specific benefits of drones add up to a massive 
economic impact.
    According to one study by the Association for Unmanned 
Vehicles Systems International (AUVSI)--one of our witnesses 
today--drones will produce about $82 billion in growth in the 
first ten years after they are integrated into our National 
Airspace System.
    The study also predicts the addition of 100,000 jobs over 
those ten years, which encompasses drone makers, software 
engineers, suppliers, researchers, and other workers that would 
support expanded drone production and use.
    To realize these benefits, the Federal Aviation 
Administration is working with stakeholders to safely integrate 
drones into American airspace.
    Simultaneously, the National Telecommunications and 
Information Administration is holding multistakeholder meetings 
with the goal of producing industry best practices around 
privacy.
    There are important questions around privacy laws and 
safety. U.S. companies like Intel are working hard to develop 
solutions that would enhance safety automatically, which no 
regulator could produce.
    In fact, I would be more worried that overregulation on 
safety could prevent the investment, testing, and research 
needed to develop these market-driven solutions.
    With the advent of drones, many have expressed concerns 
that they present novel privacy issues.
    Certainly drones go where people can't. A neighbor can fly 
a drone over your fence to pester you and invade your privacy-
and there have been disputes ending in drones being shot out of 
the air by annoyed citizens.
    There are interesting questions around whether, how, and 
under what circumstances a drone owner can be identified and 
held to account for his or her behavior. Those questions are 
now being addressed at the FAA as part of the development of 
its registry. I should note that I share the concerns of many 
with requiring small recreational drones to be registered with 
the federal government. Such an approach would involve casual 
users in a major government bureaucracy with seemingly little 
benefit.
    As regulators prepare to integrate drones into the 
airspace, it is clear that safety is the number one priority. 
But cutting-edge drone testing and evaluation is occurring 
overseas because the current process to approve commercial 
drone use is both restrictive and cumbersome in the U.S.
    I join many in the drone development space in calling for 
quick but flexible regulatory solutions that allow for future 
innovation. The speed of innovation can't remain at the speed 
of regulation for long.

    Mr. Burgess. The chair thanks the gentleman.
    The chair recognizes the subcommittee ranking member, Jan 
Schakowsky, for 5 minutes for an opening statement, please.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. I thank you, Mr. Chairman, for holding 
today's hearing on the evolution and the future of drones. I 
look forward to delving into this important issue.
    Drones are increasingly common in our communities and it is 
predicted that 1 million drones will be given as gifts over 
this holiday and drone usage will, clearly, rise in 2016.
    It is important to understand what this technology can do 
and how we can adequately ensure their safe and ethical usage.
    As the subcommittee of jurisdiction over the Consumer 
Product Safety Commission and the Federal Trade Commission, I 
am particularly interested today in the impacts of drone usage 
and public safety and privacy--the two issues that the chairman 
raised as well.
    The FAA has received over 1,000 reports of unsafe drone 
activity by pilots already this year, double the number of such 
reports from 2014. With their capacity to reach protected and 
secure areas including the White House lawn, which happened 
earlier this year, drones can pose a serious national security 
threat as well.
    We must ensure that drones are adequately regulated to 
maintain safety both for the public and for the country. The 
other important area for us to consider, as mentioned, is the 
privacy implications of the increased use of drones.
    Drones can and have been equipped with invasive 
technologies including cameras, infrared devices, even high-
powered microphones.
    This new method of collecting information does not entitle 
individuals, corporations or government entities to violate 
privacy rights and we must ensure that our laws and regulations 
reflect that fact.
    So I look forward to hearing from our witnesses to gain 
from their perspectives this emerging technology and I yield 
back my time.
    Mr. Burgess. The gentlelady yields back. The chair thanks 
the gentlelady.
    The chair recognizes the vice chairwoman of the full 
committee, Mrs. Blackburn from Tennessee, for an opening 
statement for 5 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, and I want to 
thank each of you for being here before us today and for the 
information that you're going to share with us and work with 
us.
    I appreciate this series that the chairman has put in 
place, the Disruptor Series, because we do live in a time when 
you're going to see the Internet of things, if you will, begin 
to move forward and become more enmeshed with our daily lives--
how we do business, how our military protects ourselves, how 
consumers use a product in recreation.
    All of those are components that we are going to be tasked 
with dealing with the issues and the implications.
    Now, we're looking at privacy. We're looking at safety, the 
utilizations and also we want to look at the mechanism--the 
drone itself--and then what you put on the drone, which is 
where you get into the privacy concerns and utilization of 
technology that can be a little bit invasive, if you will.
    But we do know that there is an enormous curiosity about 
these and such a desire to have a drone and play with a drone. 
I say I have a family full of big kids ranging from age 60 on 
down to age 6, all male, by the way.
    And they love all of these gadgets and toys and the next 
new thing and they so like--yes, I hear you all chuckling. I do 
think that my husband is still a big kid and but there is such 
a fascination with this and the policy implications of that 
come to us--how do you encourage that curiosity, how do you 
allow consumer use, how do you allow commercial use and still 
look at the safety and security. And, of course, as we have 
found out with our airplanes and with air travel make certain 
that we are securing that space.
    So thank you for your information and your wisdom. We 
appreciate having you here. Yield back.
    Mr. Burgess. The gentlelady yields back.
    The chair recognizes the ranking member of the full 
committee, Mr. Pallone of New Jersey, 5 minutes for an opening 
statement, please.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    As part of our ongoing Disruptor Series today we have the 
opportunity to discuss one of our fastest growing and most 
exciting industries.
    It seems there are drones for just about everything. 
Photographers can attach powerful cameras to drones to get 
shots from high in the air. Nature lovers can take footage of 
wildlife in hard to reach places.
    Surveyors use them to create more accurate maps. Both 
children and adults fly drones just for the fun of making 
something fly.
    If you want, you can buy a drone shaped like the Millennium 
Falcon from Star Wars and you could say that drones are the 
next generation of kites if kites were Bluetooth capable and 
had a thousand possible uses and companies are looking into how 
drones can improve business.
     Retail giants are exploring delivery by drone, which will 
get orders to consumers faster than ever. Farms use drones to 
oversee crop conditions and dozens of small startup companies 
are innovating new ways to use drones to protect the 
environment.
    One company has designed a drone that can sense water 
pollution from the air. Commercial and consumer drones are 
attracting a huge amount of interest in investment.
    The Federal Aviation Administration estimates that a 
million drones will be given out as gifts this holiday season, 
and according to one industry report investments in drone 
technology from January to May 2015 totaled $172 million, more 
than in the previous 5 years combined.
    These investments are not limited to one industry or 
source. They come from government, venture capitalists, 
environmental groups and huge technology firms, among many 
others.
    So it's exciting when technology leaps forward the way it 
has with drones. But as the industry develops, so do the risks. 
As more drones take to the air, safety becomes more of a 
concern. Pilots have raised concerns about sharing airspace 
with drones.
    Drones have been seen in sports arenas and pilot sightings 
of drones doubled since last year, and there has also been an 
increase in the number of safety accidents including a man who 
was killed after losing control of his drone.
    Also, many people are concerned that drones could enable 
new invasions of personal privacy. Drones can be equipped with 
cameras and recording devices and can be flown into people's 
back yards or next to their bedroom windows.
    States are beginning to pass laws to restrict drone use. 
Many of these laws are focused on protecting personal privacy. 
But some people are taking matters into their own hands by 
shooting down drones hovering over their homes.
    Innovation and growth are vital to the American economy but 
that innovation must also come with basic protections no matter 
which disruptor we're talking about.
    So consumer protections are needed for those who use drones 
and for those who come into contact with them. By addressing 
these issues, businesses and consumers can have the certainty 
they need to continue growing and enjoying this exciting new 
space.
    I am confident that we can encourage innovation in the 
drone industry and ensure that there are strong protections in 
place for consumers and I look forward to hearing from our 
witnesses how we can do just that.
    I don't know if Mr.--would you like some time? Fine. I 
yield back, Mr. Chairman.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman and this does conclude member opening statements. 
The chair would remind members that pursuant to committee rules 
all members' opening statements will be made part of the 
record.
    We do want to thank our witnesses for being here today, for 
taking the time to testify before the subcommittee. Our witness 
panel for today's hearing will include Mr. Joshua Walden, the 
senior vice president and general manager of the New Technology 
Group at Intel; Mr. John Villasenor, professor of public 
policy, electrical engineering and management at UCLA's Luskin 
School of Public Affairs; Ms. Margot Kaminski, assistant 
professor at the Moritz School of Law at Ohio State University; 
and Mr. Brian Wynne, president and CEO of the Association for 
Unmanned Vehicle Systems International.
    We appreciate all of you being here today. We are going to 
begin the panel with Mr. Walden. Just an editorial note--we are 
going to have votes on the floor soon. So I would ask that you 
each adhere to the 5 minutes for your opening statement. You 
will see the lights down below.
    Again, we appreciate all of you being here. We will begin 
with you, Mr. Walden. You are recognized for 5 minutes for an 
opening statement.
    We have technical assistance on the way. You would think in 
the major congressional committee that deals with technology we 
wouldn't have wires running all over the place. We'd have a 
series of drones picking up every hiccup and cough from the 
witness table.
    Mr. Walden, I am going to blame the press for probably 
dislodging a cable as they were taking pictures of your 
aircraft, and our apologies.
    Are we there yet? I don't think any of the microphones are 
working. Mr. Wynne, does your microphone appear to be on?
    Mr. Wynne. Testing. There we go.
    Mr. Burgess. Whoever's is working please proceed 5 minutes.

STATEMENTS OF JOSHUA M. WALDEN, SENIOR VICE PRESIDENT, GENERAL 
    MANAGER, NEW TECHNOLOGY GROUP, INTEL CORPORATION; JOHN 
VILLASENOR, PROFESSOR OF PUBLIC POLICY, ELECTRICAL ENGINEERING 
AND MANAGEMENT, LUSKIN SCHOOL OF PUBLIC AFFAIRS, UNIVERSITY OF 
   CALIFORNIA, LOS ANGELES; BRIAN WYNNE, PRESIDENT AND CEO, 
ASSOCIATION FOR UNMANNED VEHICLE SYSTEMS INTERNATIONAL; MARGOT 
KAMINSKI, ASSISTANT PROFESSOR, MORITZ SCHOOL OF LAW, OHIO STATE 
                           UNIVERSITY

                 STATEMENT OF JOSHUA M. WALDEN

    Mr. Walden. Chairman Burgess, Ranking Member Schakowsky and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify on behalf of Intel Corporation.
    We appreciate the invitation to appear before the 
subcommittee to discuss the continuously and rapidly evolving 
uses of unmanned aerial vehicles, UAVs or drones, and the vast 
economic potential of this growing industry.
    Innovation has been at the heart of Intel's business since 
we were founded close to half a century ago. To quote our co-
founder, Robert Noyce, innovation is everything.
    While we are a recognized leader with 80 percent of sales 
coming from outside the United States, Intel is viewed as a 
leading American technology company for good reason. We conduct 
approximately three-quarters of our advanced manufacturing in 
research and development in the United States at facilities 
located throughout the country.
    We invest billions of dollars annually in research and 
development and employ more than 50,000 people nationwide. 
Intel's declared mission is to utilize the power of Moore's Law 
to bring smart and connective devices to every person on the 
planet.
    With the help of Moore's Law, we have driven computing 
innovation to the highest performing servers that speed 
discoveries in science and medicine to low-powered computing 
sensors that are always on and connected that make devices, 
homes and cities smarter.
    It has become increasingly clear to us that UAVs like cars 
and watches are a computing platform of the future. 
Applications and services by this new connected UAV ecosystem 
will spur significant economic growth and will be driven by 
innovations in UAV technology.
    From infrastructure inspection to delivery of goods, 
millions of Americans are on the cusp and enjoying the benefits 
of this continually developing technology.
    UAVs are being used to inspect bridges safely and 
efficiently, allow for real time repairs. Mobile carriers aim 
to keep workers on the ground by using UAVs for cell tower 
inspection, an application with potential lifesaving 
ramifications. From 2004 to 2013, there were 95 fatalities 
associated with cell tower inspections.
    Another up and coming usage will be having multiple drones 
working in conjunction with a single operator used for either 
surveillance, safety, agriculture and even entertainment.
    Computing technology is what will help drive and manage 
this capability with more precision, safety and accuracy than 
manual control.
    Technology can and will improve drone safety. We are 
actively creating silicon architecture and computing power that 
will create onboard drone platforms that will have outstanding 
speed, performance, and functionality.
    And our most important contribution to date involves 
critical safety technology that will address real concerns 
expressed by regulators and consumers alike. Real Sense is an 
onboard sensor application that represents a key ingredient for 
best in class collision avoidance.
    It features several attributes for collision avoidance with 
real-time onboard computing. It is intuitive, self-aware, 
adaptable and self-guided. It will provide real-time depth-
sensing capability for a flying drone and complying with GPS, 
altitude, and other on-board sensors can also avoid no-fly 
areas and comply within regulatory limits.
    I'd like to demonstrate the capability, if we could, 
please. So what you see Jan doing is he's no longer utilizing 
the controller and what the 3D Real Sense camera technology is 
doing is essentially sensing using infrared and moving and 
making sure that nobody can run into the drone. So this is 
real-time collision avoidance utilizing 360 degrees of freedom. 
Thank you, Jan.
    So I think we're going to demonstrate the sense and avoid 
of what the drone is actually seeing. If you could please look 
to the video screens, hopefully. There we go.
    So what you're seeing is the ring sense, or the IR picture, 
of what the drone is seeing. Note this is not being seen by the 
pilot. None of these images are saved, from a privacy 
perspective.
    This is an IR image the drone is seeing and if someone gets 
closer to the camera you'll actually see the image get darker 
and as they move away get lighter.
    So this is actually the depth that you're seeing of what 
the drone is seeing which enables it to avoid people and 
objects.
    Thank you.
    Society, consumers, businesses, and overall worldwide 
economies stand to benefit in profound ways if the nascent 
drone ecosystem can develop safely, quickly, and in a manner 
where governments and private sector work cooperatively and 
expeditiously across a range of statutory, regulatory, and 
policy matters.
    We believe that it is critical for the United States to 
develop a regulatory framework for UAVs that role models 
innovation for the rest of the world. This framework should 
allow U.S. companies not only to compete in the global market 
but also lead and drive global UAV innovation.
    It is possible to both improve safety and promote American 
innovation involving advances in drone technology. However, a 
federal government approach that is overly prescriptive 
regarding the deployment of new hardware and software will 
deter the private sector's ability to invent and compete in the 
marketplace.
    In addition, privacy is of paramount importance for the 
public's acceptance in understanding the widespread UAV 
operations in all environments.
    Protection of privacy has always been built into the fabric 
of Intel. Intel has embraced the Fair Information Practices 
Principles, FIPPs, as the Global Foundation for Privacy 
Protection to foster technology innovation. With respect to 
drones, the FIPPs can be applied to the drone platform in the 
collection, usage and distribution of data.
    As Intel and others innovate and then integrate those 
innovations into UAV platforms it will be critical to have a 
seamless and effective regulatory structure in place that 
supports such innovation.
    Approval processes that can stretch close to a year should 
be dramatically streamlined. Many commercial uses of small UAVs 
should be allowed without filing requirements just as 
hobbyists' use is permitted today.
    Without the right regulatory balance, we risk delaying the 
social and societal benefits and U.S. economic opportunities. A 
recent study estimates over a 10-year span UAV integration with 
national airspace will count for $82 billion in job creation 
and growth.
    Thank you for conducting this hearing and for giving Intel 
the opportunity to testify in this exciting field of drone 
technology which, with modern regulations in place, will 
transform our society into a safe and responsible fashion.
    Thank you very much.
    [The prepared statement of Mr. Walden follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Burgess. Chair thanks the gentleman.
    Professor Villasenor, your 5 minutes, please.

                  STATEMENT OF JOHN VILLASENOR

    Mr. Villasenor. Good morning, Chairman Burgess, Ranking 
Member Schakowsky and members of the subcommittee. I thank you 
very much for the opportunity to testify today.
    The views I'm expressing here are my own and do not 
necessarily represent those of any of the organizations I am 
affiliated with.
    Today, an unmanned aircraft can refer to everything from a 
small toy helicopter that might cost only $10 to a jet-powered 
Global Hawk which can weigh 15,000 pounds and cost over $100 
million.
    There are solar-powered unmanned aircraft that can stay 
aloft in the stratosphere for weeks at a time and hobbyist quad 
copters that may only weigh only a pound or two and have flight 
durations measured in minutes.
    The Nano Hummingbird, developed by California-based 
AeroVironment under DARPA funding, weighs only two-thirds of an 
ounce including an onboard video camera, and that is technology 
that is now almost half a decade old.
    In 2013, a team of Harvard researchers reported the 
successful flight of the RoboBee, a robotic insect that weighs 
less than one-three-hundredth of an ounce.
    These examples underscore the incredible variety in 
unmanned aircraft and the near impossibility of predicting how 
this technology will evolve in the future.
    An additional complicating factor is the same unmanned 
aircraft platform can play many different roles. For example, a 
small quad copter weighing one or two pounds in the hands of a 
professional videographer would be considered a professional 
platform.
    That same unmanned aircraft in the hands of a hobbyist is a 
hobbyist platform and that same platform in the hands of a 10-
year-old child might be considered a toy.
    Another issue and one that falls squarely under the 
jurisdiction of this committee is that far more than in the 
past unmanned aircraft are becoming consumer products.
    In the event of a defect creating a safety hazard, this 
creates some complex potential overlaps between agencies such 
as the FAA on the one hand and the Consumer Products Safety 
Commission on the other hand.
    For unmanned aircraft that are marketed as consumer 
products there is certainly a role for consumer protection. I 
believe the Consumer Products Safety Commission recognizes 
this. In fact, a search of recalls on the CPSC Web site shows 
that they have been very active in issuing recalls related to 
consumer unmanned aircraft products.
    Of course, no one would suggest the CPSC should have 
jurisdiction over a Global Hawk or that they should be involved 
in developing regulations governing flight operations.
    But precedent makes it clear that with respect to product 
safety the CPSC will be in the mix and in fact has already been 
in the mix for quite a few years when it comes to consumer 
unmanned aircraft.
    As consumer unmanned aircraft offerings continue to grow, 
there will be an increased need for coordination between the 
CPSC and the FAA.
    For example, there will be some UAS products that serve 
both consumer and nonconsumer markets. The safety issue with 
one of those products might be initially reported to the FAA 
and not the CPSC or vice versa.
    The good news is that the CPSC has proven adept at 
addressing an extremely broad range of products in the past and 
there is every reason to believe it will be capable of 
addressing the growing number of consumer unmanned aircraft 
product offerings that fall within its jurisdiction.
    In closing, I would like to express my appreciation to the 
subcommittee for holding this series of hearings on disruptive 
technologies including the unmanned aircraft being discussed 
today.
    With rapidly changing technologies there can sometimes be a 
tendency to over regulate and in doing so to inadvertently 
stifle innovation, impede future growth or infringe civil 
liberties.
    To ensure a balanced approach when contemplating new policy 
solutions addressing these technologies, I think it is 
important to take a full accounting of existing frameworks, 
some of which can be more applicable than might initially be 
apparent.
    Integrating unmanned aircraft into the national airspace 
system will open up a host of socially and economically 
beneficial applications.
    In addition, that integration will help ensure continued 
American leadership not only in aviation but also in related 
sectors such as robotics.
    I am confident that with the proper mix of education, self 
regulation and government oversight the overs helming majority 
of commercial and hobbyist unmanned aircraft operators will fly 
safely and in a manner respectful of privacy and property 
rights.
    Thank you again for the opportunity to testify on this 
important topic.
    [The prepared statement of Mr. Villasenor follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Burgess. The chair thanks the gentleman.
    Professor Kaminski, you are recognized for 5 minutes for 
the purpose of an opening statement.

                  STATEMENT OF MARGOT KAMINSKI

    Ms. Kaminski. Good morning, Chairman Burgess, Ranking 
Member Schakowsky and distinguished members of the 
subcommittee. Thank you very much for the opportunity to 
testify today on unmanned aircraft systems, or drones.
    I am a professor of law at the Ohio State University Moritz 
College of Law and an affiliated fellow of the Information 
Society Project at Yale Law School.
    However, as a fellow panelist, the views I am expressing 
today are my own. In my testimony I am going to focus primarily 
on the impact of drones on privacy, which is a crucial aspect, 
as many members recognize, of consumer protection.
    For drones to be publically accepted and fulfill their 
economic potential, citizens must be able to trust that the 
surveillance powers drones have will not be abused.
    Drones will be used for a wide variety of economically and 
socially beneficial activities ranging from infrastructure 
inspection to precision agriculture. In the best scenarios, 
drones will reduce risks to human actors and enable important 
information gathering at a low cost.
    But it is precisely these beneficial aspects of drones that 
they enable low cost low risk information gathering that also 
raise the spectre of privacy harms.
    While many uses of drones will have little to no impact on 
human populations, a wide variety of commercial applications 
will take place in residential environments where citizens' 
expectations of privacy have been recognized to be at their 
highest.
    AUVSI, in its analysis of the first 1,000 commercial UAS 
exemptions granted by the FAA noted that over half of the 
exemptions were granted for general aerial photography, real 
estate uses, which quintessentially impact residential areas, 
followed with a third of the exemption, 350 exemptions.
    Drones do raise privacy concerns on a spectrum with other 
technologies. Like smart phones, they make surveillance more 
pervasive by lowering its cost and raising the rate of social 
adoption.
    Like GPS, they make surveillance more persistent--that is, 
able to follow individuals over longer periods of time. And 
like helicopters, they enable surveillance from disruptive 
vantage points.
    Drones thus raise privacy problems both because of what 
they carry and where they carry it. Where a person used to be 
able to rely on a privacy fence, remote location or building 
height to manage their social accessibility, drones disrupt the 
use of these environmental management tactics that we all rely 
on.
    These disruptions have real social costs. Not only may 
citizens fear drones or even shoot them down but they will 
alter their behavior in ways that can be truly socially 
harmful. Surveillance has been shown to cause conformity, and 
conformity has costs to both democracy and the economy.
    Multiple states have, as a consequence, recently enacted 
privacy laws governing drones operated by nongovernmental 
actors.
    These laws are often but not always technology specific, 
addressing drones but not other kinds of surveillance, and they 
typically govern the moment of actually surveillance when 
information is collected, not data privacy practices after the 
information has been gathered.
    The content of these laws range widely. At this point, I 
counted nine or ten states that have enacted them. They range 
from protecting from the moment of gathering in any location to 
protecting only gathering information on private property, 
which is a limited value when you consider where drones can 
fly.
    Privacy protection is crucially important but governing 
drones also implicates First Amendment interests. Drone 
journalism is a budding field. News gatherers will be able to 
and will use drones to gather information about droughts, land 
management and government actions, all information that enables 
democratic self-governance and raises significant First 
Amendment concerns.
    A number of courts of appeals have now recognized a limited 
First Amendment right to record. The scope of that right is 
still very much up for question. And for this reason, I 
actually caution the federal government against enacting 
legislation that governs information gathering by drones by 
private actors.
    Courts will need time to unravel the tension between the 
state privacy laws and countervailing First Amendment 
interests. In the meantime, federal energy can better be turned 
towards the data privacy issues that drones and similar new 
technology like the Internet of things raise.
    Drone surveillance implicates not just information 
gathering but data privacy. State drone privacy laws do not 
attempt to govern this data and this, I believe, is the place 
for federal action.
    The information privacy harms raised by drones sit, again, 
on a spectrum with other familiar technologies. It shares 
features with online surveillance. Information privacy harms 
will largely arise when large amounts of information are 
correlated, used out of context or used in a discriminatory 
fashion.
    Drone surveillance crucially differs, however, from online 
surveillance in that the surveillance subject will not be the 
person who clicks through a user agreement.
    Like the Internet of things, drones raise the question of 
how to govern information privacy when then surveillance 
subject has no relationship to the product manufacturer or 
service provider.
    Our current data privacy regime based on requiring 
companies primarily to comply with their own privacy policies 
is ill equipped to address issues raised by the Internet of 
other people's things.
    A federal data privacy regime based instead on the Fair 
Information Practice Principles, or FIPPs, embraced 
internationally would protect the privacy of citizens who are 
not subject to user agreements, would bolster FTC authority in 
this area and would provide a backdrop of encouraging 
industries to establish best practices even when they have few 
incentives based on consumer relationships.
    To close, I support and have been participating in the 
Department of Commerce's efforts through the National 
Telecommunications Infrastructure Agency to establish and 
recommend best practices governing drone use and privacy.
    In the absence of federal data privacy law, however, 
industry is unlikely to agree to meaningful protection for 
third parties and in the absence of meaningful privacy 
protections drones will not get off the ground.
    Thank you very much for your time and attention and the 
opportunity to testify today.
    [The prepared statement of Ms. Kaminski follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Burgess. The chair thanks the gentlelady.
    Mr. Wynne recognized for 5 minutes for an opening 
statement, please.

                    STATEMENT OF BRIAN WYNNE

    Mr. Wynne. Thank you, Chairman Burgess, Ranking Member 
Schakowsky. Thank you very much, members of the subcommittee 
for the opportunity to participate in today's hearing on 
unmanned aircraft systems.
    I am speaking on behalf of the Association for Unmanned 
Vehicle Systems International, the world's largest nonprofit 
organization devoted exclusively to advancing unmanned systems 
and robotics.
    UAS have a significant impact on our society and economy 
already and will continue to do so in the future. From 
inspecting oil pipelines and filming television shows and 
movies to providing farmers with aerial views of their crops, 
the applications of UAS are virtually endless and they enable 
researchers, public entities and businesses to do things safer 
and more cost effectively.
    UAS industry is poised to be one of the fastest growing in 
American history. The AUVSI numbers have already been 
referenced by several of the speakers.
    There is no question that under the right regulatory 
environment that these numbers could actually go higher. 
However, we are disappointed that the FAA missed the September 
30th, 2015 congressionally mandated deadline for UAS 
integration and it still has yet to finalize a small UAS rule 
for commercial operations.
    As we wait, American businesses and innovators are left 
sitting on the sidelines or are operating under a restrictive 
exemption process. Let me explain.
    Under the small UAS rule, until the small UAS rule is 
finalized the primary way commercial operators may fly is 
through an exemption process.
    In May 2014, the FAA announced it would consider granting 
exemptions for low-risk commercial UAS applications under 
Section 333 of the 2012 FAA Modernization and Reform Act.
    Currently, the FAA has more than 2,400 pending requests and 
has granted more than 2,200 exemptions to businesses. According 
to AUVSI's report on the first 1,000 exemptions businesses in 
more than 25 industries representing more than 600,000 jobs are 
now using UAS.
    These companies contributed about $500 billion to the U.S. 
economy in 2014 and provide essential services to citizens 
across the nation.
    For example, Texas businesses have received 82 approvals to 
fly commercially. More than a third of these companies are real 
estate businesses such as Austin-based Boyd & Boyd Properties.
    The Associated General Contractors of America represents 
26,000 member companies in the construction industry. Some are 
using UAS to improve project planning and execution.
    These are only a couple of examples but it is easy to see 
the far reaching benefits UAS will add. But while some 
businesses are flying, the current system of case by case 
approvals isn't a long-term solution.
    Meanwhile, some of the requirements under the exemption 
process are more onerous than those contemplated in the draft's 
small UAS rule.
    For example, the exemptions typically require UAS operators 
to hold at least a sport pilot certificate. The draft's small 
UAS rule, however, would require commercial operators to pass 
an aeronautical knowledge test every two years.
    In addition to helping the UAS industry thrive, putting the 
small UAS rules in place will provide the necessary tools and 
training to create a culture of safety around the use of UAS.
    As more commercial operators are certified or certificated, 
they will join the long standing aviation community, which I 
have been part of for more than 20 years as an instrument rated 
general aviation pilot.
    They will foster the aviation community's principles of 
airmanship and self-policing to promote safety and help thwart 
careless and reckless operations. And because safety is 
essential for all users, AUVSI, in partnership with the Academy 
of Model Aeronautics and the FAA, last year developed the UAS 
safety campaign Know Before You Fly to educate newcomers to 
UAS, many of whom have no aviation experience about where they 
should and shouldn't fly.
    AUVSI also serves on the Department of Transportation's 
Task Force on Registration. This collaborative effort to 
develop an efficient process for UAS registration should lead 
to increased accountability across the entire aviation 
community.
    Under the FAA's draft small UAS rule, commercial operators 
would be required to register their platforms. Extending this 
to consumer UAS users will help promote responsibility and 
safety.
    UAS technology is at an exciting and pivotal stage. It is 
developing rapidly with new applications being introduced 
nearly every day and at a rate much faster than it takes to 
develop the necessary regulations.
    We need to ensure that the FAA adopts the proper framework 
to keep up with the rapid development of U.S. technology and to 
maintain the safety of our airspace.
     Thank you again for the opportunity to speak today.
    [The prepared statement of Mr. Wynne follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Burgess. The chair thanks the gentleman and there are 
votes on the floor.
    I am happy that we made it through all the openings 
statements. We will take a recess until the conclusion of this 
vote series. So until then the subcommittee stands in recess 
subject to the call of the chair.
    [Whereupon, the above-entitled matter went off the record 
at 10:56 a.m. and resumed at 11:43 a.m.]
    Mr. Burgess. I call the subcommittee back to order and once 
again thank you all for your testimony. Thank you for being 
patient with us.
    We have moved into the question and answer portion of the 
hearing and I want to begin that by recognizing Mr. Harper from 
Mississippi 5 minutes for your questions, please.
    Mr. Harper. Thank you, Mr. Chairman.
    Thank you to each of you witnesses that are here. This is 
such an important topic. Unmanned aerial systems, often called 
UAS, remotely piloted aircraft or drones or whatever the name, 
have certainly benefited the U.S. military immensely through 
surveillance, reconnaissance and combat missions.
    As has been the case throughout history, technologies 
developed for the Department of Defense have tremendous 
potential for commercial and civilian applications as well.
    However, to do so it will be essential that we safely 
integrate these systems into the national airspace, which is 
not an easy task, as you each know.
    While UAS has applicability in almost all areas which 
require the collection of data, I believe that there are really 
three areas which justify specific mention. Specifically, these 
are support for critical transportation and logistics 
infrastructure, emergency response such as search and rescue 
and wildfires.
    Finally, one area which is already showing I think possibly 
the greatest potential is precision agriculture. These are the 
applications.
    With the use of the technology within these applications is 
staggering and each should be a reminder to us that the safe 
integration of UAS into the national airspace should be our 
highest priority.
    I am pleased that the Federal Aviation Administration has 
chosen Mississippi State University, which is in my district, 
as the lead for its center of excellence for unmanned aerial 
systems relying on Mississippi State University and its 21 
collaborating academic institutions along with over 100 
industry partners to provide the research necessary for this 
integration.
    It is critical that we move quickly to execute this 
research so that we can address such critical issues as sense 
and avoid technologies, airworthiness, remote sensing, beyond 
line of sight operations, cyber security and low altitude 
operations to enable this industry to thrive.
    Following in that theme, I would like to focus my questions 
on FAA's role as we move forward and I will start with you, Mr. 
Wynne, if I may, and ask you do you believe that the FAA has 
adequately defined the roadmap for UAS integration.
    Mr. Wynne. Yes, sir. I think there is a good roadmap 
available and actually a tremendous amount of work that has 
been done in the unmanned aircraft systems, ARC, Aviation 
Rulemaking Committee.
    So we know what the work is that needs to be done. I don't 
that it is properly funded today. I think the center of 
excellence is doing excellent work.
    We have test sites as well that are not very well funded, 
not funded at all, indeed, by the federal government. I think 
it is going to be really important to move forward on that 
roadmap to identify equivalent level of safety.
    There is going to be research and development that needs to 
be done. The center of excellence will do some of that through 
its partners. We are participating in that as well.
    The test sites were essentially stood up for that purpose. 
But the FAA has to direct that. They have to--and in some 
instances they need to be able to fund some of that with, of 
course, appropriate industry resources as well.
    Mr. Harper. Great. Mr. Wynne, there are clearly research 
priorities that can enhance the safe integration of UAS into 
the national airspace.
    What do you believe are the highest priorities in that 
regard that should be addressed?
    Mr. Wynne. Well, the two that come to mind immediately, of 
course, are sense and avoid. If I am not on the aircraft and I 
can't see it I need to miss it.
    So the question is what kind of technologies can we use for 
that and, there is on board radar for things that are flying at 
the flight levels and the military has been utilizing very 
successfully to keep manned and unmanned aircraft separated 
from one another for quite some time now in theater.
    But we need to be able to develop those technologies. There 
are some great technologies that are coming along for sense and 
avoid at the lower levels for smaller aircraft that are less 
energy intensive and less costly.
    C2 communications also very important. Lost link 
procedures--these are the kinds of things that we need to work 
on first and are being worked on.
    Mr. Harper. Thank you very much, Mr. Wynne.
    Mr. Villasenor, the FAA must define requirements for UAS 
integration into the national airspace without being so 
prescriptive as to stifle innovation. How might it do so?
    Mr. Villasenor. Well, first of all, I think it is an 
extremely hard task so I have a lot of respect for the work 
that the FAA is doing.
    I think it is important to take full account of the 
innovation in the ways of using unmanned aircraft that are 
going on not only in the commercial community but also in the 
hobbyist community as well because that is traditionally and 
I'm sure in the future where so much of our innovation comes 
from and it is important not to impede that community in terms 
of their innovation.
    Mr. Harper. Thank you very much, and my time is expired 
almost, Mr. Chairman, so I yield back.
    Mr. Burgess. The gentleman yields back. Chair thanks the 
gentleman. The chair recognizes the gentlelady from Illinois, 
Ms. Schakowsky, 5 minutes for questions please.
    Ms. Schakowsky. Thank you.
    Professor Kaminski, I wanted to ask you something. We are 
always trying to balance, for example, national security and 
privacy issues.
    You also raised First Amendment versus privacy issues and 
you believe that there is a federal role for us to play. You 
did list, I think, four states in your written statement that 
have some laws that are technology specific, et cetera.
    So if you could elaborate a bit on what are the arenas in 
which the federal government ought to consider regulating 
drones?
    Ms. Kaminski. Absolutely. Thank you, Congresswoman.
    So the state laws that are being put into place primarily 
govern the capture of information with the drone, best 
described as drone photography or drone videography, and that 
is the moment at which the information is recorded.
    On the federal level, it would be useful to have in place a 
data privacy regime meaning a regime that deals with 
information that has already been recorded and addresses things 
along the lines of use specification, making sure that data 
that has been gathered for one use is not used for another 
purpose, trying to ensure transparency for consumers, trying to 
ensure some kind of auditing mechanism so the data is not taken 
out of context or used in a discriminatory manner.
    So the place for federal government, I believe, is in the 
general purpose nontechnology specific data privacy regime that 
complies with the Fair Information Practice Principles, or 
FIPPs.
    Ms. Schakowsky. Mr. Walden, in the demonstration you showed 
the safety feature so that they don't bump. But you also said 
it isn't saved.
    But certainly that kind of thing in fact could be saved, 
right? And so we could have even better photographs of who is 
avoiding the drone and, what assurances do you think there are 
that that information isn't saved?
    Mr. Walden. No, I think it's a great question.
    The way that we designed this technology is really for, 
again, detection and avoidance for an operator that is flying a 
drone and so right now the technology is actually built 
specifically with a circuit that only does that three-depth 
mapping and does not save it.
    So you'd actually have to go in and completely modify not 
only the camera but the interface that we provide for that.
    Now, that said, drones clearly could have a camera that is 
attached to it that isn't part of the sense and avoid circuitry 
or technology. And so clearly, we as a company continue to 
advocate and support privacy.
    I am quite proud of the IUs that Intel has among both 
privacy, security, as well as safety.
    And so we have a very strict regimen of how we create, 
design and actually productize these things that have to go 
through a third party review board internal to Intel to ensure 
that we don't break any of those.
    Ms. Schakowsky. A third party within Intel?
    Mr. Walden. Correct.
    Ms. Schakowsky. So, again, Professor Kaminski, is that a 
real concern?
    Ms. Kaminski. I appreciate Intel's forthrightness on the 
programs that they have instituted and from conversation with 
them appreciate the amount to which they have taken privacy 
considerations to heart internally.
    However, effective auditing mechanisms usually involve a 
third party outside of the company as opposed to a third party 
within a company.
    Ms. Schakowsky. So that issue of--I guess it is immediate. 
When does that erasing happen? It is automatic?
    Mr. Walden. It is actually not captured. It has a buffer in 
there. So it only lasts for a few seconds, essentially. So it 
doesn't even store that with regards to this camera, again.
    And I do agree and we do utilize, by the way, third parties 
to come in and audit to ensure that we are doing safe practices 
and following that. So I absolutely agree with Professor 
Kaminski there.
    Ms. Schakowsky. But some sort of a legislative regime, and 
I heard you, Professor, you are saying we want to be cautious 
or maybe that is not the right word even. We want to strike the 
right balance. I wondered if you wanted to comment on that.
    Mr. Villasenor. Yes. I am fully appreciative of and share 
many of the concerns that have been raised about potential 
abuses of not only this technology but many others with respect 
to privacy. What I am adding is that I think that in addressing 
those we need to be careful not to inadvertently impede uses 
that have absolutely no privacy consequences at all 
inadvertently. So I think it is important to be aware of 
unintended consequences.
    Ms. Schakowsky. What would that be?
    Mr. Villasenor. Well, for example, if there is a state law 
that prohibits photography of private property, does that mean 
if I am, 3,000 feet up and I want to just take a picture out of 
an airplane as it is coming in for landing at an airport, I am 
sitting in a commercial plane, I can certainly do that and no 
one has a problem with that.
    If that same picture is acquired by an unmanned aircraft it 
would seem inconsistent for that to be unlawful. In fact, it is 
probably First Amendment violation to make that unlawful. So 
those are some of the examples of some of the constraints I 
worry about.
    Ms. Schakowsky. OK. This is a really interesting area that 
we have to navigate to get it right. Thank you very much.
    Mr. Burgess. Gentlelady yields back to chair.
    Thanks to the gentlelady. The chair recognizes the 
gentleman from New Jersey, Mr. Lance, 5 minutes for questions.
    Mr. Lance. Thank you. Good morning to the panel.
    To the law professors, are there state laws currently on 
the books regarding all of this?
    Ms. Kaminski. There have been--I listed it in my written 
testimony. I believe there have been 9 or 10 states that have 
enacted privacy laws regarding private actor use of drones but 
they vary greatly depending on which state you are in.
    Mr. Lance. And to the distinguished law professors, do you 
believe that we should take action here and should that action 
supersede state law or should there be a regimen where there is 
both state law and some law here at the federal level?
    Ms. Kaminski. I believe that on the information gathering 
front, the moment at which information is captured, that is 
appropriate for states to experiment with legislation in large 
part because it is similar to areas in which states have 
legislated in the past such as the privacy torts or related 
torts or misdemeanor such as the peeping tom torts.
    When you are talking about privacy governance, however, 
that's an appropriate place for the federal government to step 
in and those two regimes could absolutely be complementary to 
each other rather than preemptive.
    Mr. Lance. I was taught tort law by John Wade, who was the 
reporter for the restatement and he is deceased. I think what 
would he have done in this situation. It just shows the 
advancing nature of American society, world society and how a 
new tort might actually come into play.
    Professor?
    Mr. Villasenor. Yes, and just to make sure the record is 
straight, my primary affiliation is actually not in the law 
school at UCLA and I think there is express federal preemption 
in Title 49 that says that the air space of the United States 
is under the exclusive control of the United States.
    Mr. Lance. Of the United States, yes.
    Mr. Villasenor. Right. And so I do have some concerns to 
the extent that state laws, in some cases, would purport to 
create a bit of a conflict there.
    One of the most important and interesting questions, and it 
relates very directly to the privacy question, is this tension 
in some sense between where a property owner's control over the 
space enveloping his or her property--where that stops and then 
where the control of the federal government starts.
    I don't really think there is much of a role for state 
airspace in there. I think it is really between the property 
and the federal government.
    But the complexity is the trespassing and the invasion of 
privacy torts and common law of the torts and the criminal and 
civil statutes are, of course, at the state level and that 
would be where you worry about things right on your property.
    So it's a complex mix of federal and state laws.
    Mr. Lance. Thank you. Does the panel have any 
recommendations regarding what I mentioned in my opening 
statement, that there were recently violations near sensitive 
sites, oil refineries and one of the major airports in this 
country?
    And of course there have been violations as has been 
mentioned by the ranking member here in Washington including at 
the White House? Does the panel have any recommendations for us 
in that regard?
    Mr. Walden. So let me start.
    Mr. Lance. Mr. Walden, yes.
    Mr. Walden. Absolutely. I think that technology, as it 
continues to progress and you utilize that such as geofencing, 
which enables you to use altitude GPS as well as other sensors, 
you can actually create no-fly zones and implement them into 
drones or into other----
    Mr. Lance. That can be built into the technology?
    Mr. Walden. Correct. And it exists today in some drones.
    Mr. Lance. Very good. And then I guess it does not exist in 
the drone that is here on the table?
    Mr. Walden. Actually, it does because what you do is you 
program out certain areas. So, for example, in Santa Clara 
where we are we happen to be located within the San Jose 
Airport----
    Mr. Lance. I see.
    Mr. Walden [continuing]. Space. I cannot fly a drone. It 
won't allow me to start the drone.
    Mr. Lance. I see. So that drone could not fly over the 
White House?
    Mr. Walden. This particular drone is a prototype so this 
one isn't even for sale. But as far as the commercial drones 
that we----
    Mr. Lance. I was going to ask my wife to buy me that for 
Christmas.
    Mr. Walden. Sorry. Not available yet.
    Mr. Lance. Not available.
    Mr. Walden. There may be other ones.
    Mr. Lance. I see. Anyone else? Mr. Wynne.
    Mr. Wynne. Yes, thank you.
    I am a big fan of technology and but I don't think it takes 
the place of airmanship which I mentioned in my testimony and I 
think we have a big challenge right now. I am not fond of the 
distinction but there is a big challenge between hobbyists, 
producers, consumers, and commercial operators.
    I represent predominantly the commercial operators here and 
right now we are restricted from flying except by exemption. So 
we want to change that in a big hurry.
    My point simply is the sooner we have certificated 
operators up and running, much like in all of aviation it's a 
self-policing community.
    If my ticket is at stake because someone who is doing 
something that is putting the use of UAS at risk because of 
being careless or reckless, I am going to want to say something 
about that and the FAA will never have enough enforcement 
personnel to be everywhere nor do they need to be for general 
aviation or for commercial aviation.
    We are a self-policing community.
    Mr. Lance. My time has expired. Thank you very much to the 
entire panel.
    Mr. Burgess. Chair thanks the gentleman. The gentleman 
yields back.
    Chair recognizes the gentleman from Oklahoma 5 minutes for 
questions, please.
    Mr. Mullin. Thank you, Mr. Chairman, and I may be going at 
this a little bit different than most because the thought of 
more regulations just hurts my head.
    But at the same time what is the point of more regulations 
if you can't enforce it. And sir, you just made a point of 
that--it's self-regulated almost.
    But there has got to be something done. Mr. Walden, I hear 
what you say that it is built in but any technology that can be 
programmed in can also be programmed out. And unfortunately 
that may not be that particular unit but you can get it online. 
I can Google right now online and get a kit to build myself.
    I couldn't build it but there's a lot of people out there 
that could. So how do we actually enforce it? How do we 
actually police it? Because in our communities, and I come from 
very rural communities, they are useful.
    We can check pastures. We can check cattle. We can check 
fires. We can check areas that we couldn't even normally get 
to. We'd have to horseback into it and we can go into. And so 
they are very useful, but at the same time very dangerous.
    And so I guess my first question would be how would you 
guys propose even looking into legislation that would be 
reasonable to enforce?
    Mr. Wynne. Well, just for clarification I was arguing in 
favor of regulation.
    Mr. Mullin. Well, I know what you're saying but it doesn't 
do any good to just self-police. A guy isn't or a gal isn't 
born a robber and it's an opportunity that creates them to be a 
thief, right. And the first time you break the rule you'll 
break the second one too. The hardest lie is the first lie.
    Mr. Wynne. I agree with you and there is no technology that 
can be devised for mal-actors.
    So I think my point simply is that there has to be 
consequences to flying recklessly and carelessly and right now 
there--up until now, until very recently when we started 
talking about registering hobbyists, all drones essentially 
below or above a certain cut line that we would call toys, 
which is what's currently being contemplated and worked on by a 
very good task force, there was no consequence essentially to 
flying other than careless and recklessly. And it is very 
difficult for the FAA to enforce that.
    What I am arguing is that as a community we stand for safe 
and responsible flying but we need rules under which----
    Mr. Mullin. I get that. So from the community what do you 
propose? If the lawmakers get involved in this, come on, we're 
going to screw this up.
    None of us are experts in the field. What we're wanting is 
outside information. What the chairman is doing here is holding 
a hearing to find out information for us to build safely and 
reasonably an act, some type of regulation to be proactive and 
not reactive.
    We're asking professionals like you to come in and help us 
find this out so we don't pick winners and losers because 
that's what we do.
    Mr. Wynne. The first thing is we need the small UAS rule 
finalized and implemented as quickly as possible. That is the 
lowest risk possible flying imaginable.
    Under 500 feet away from people, away from airports, within 
visual line of sight by a certificated operator. There is no 
reason why we can't get that done soon and we need to get it 
done----
    Mr. Mullin. So how would that be enforced?
    Mr. Wynne. I am arguing that basically people will, that 
are certificated, will be economically incentivized to enforce 
their own rules and as is currently the case with--we are not 
going to be doing things that essentially put our livelihood at 
risk.
    Mr. Mullin. Yes, but not everybody works with them. They 
are a toy. I mean----
    Mr. Wynne. I am talking about commercial operations.
    Mr. Mullin. I understand that. But I am talking about the 
commercial operator is going to be affected by the few bad 
apples that is going to be in it.
    And is there technology that exists? Is there even a way to 
create the technology to self-monitor that? Professor?
    Ms. Kaminski. Yes. So technology is not my area of 
expertise but I have talked to a number of technologists 
working on this issue including at my own university and I 
think that the geofencing technology that was raised by Intel 
is something that is a potential solution for good actors.
    There are concerns that geofencing, if applied too broadly, 
is going to end up restricting use of technology that would be 
beneficial. So keep that in mind.
    When you are talking about bad actors, however, then the 
kind of technological solutions you're going to look for are 
going to have to do with traceability on the one hand to try to 
identify the actor who is operating the drone.
    There are a variety of possible technical solutions for 
making drones traceable and writing on the side of a drone with 
a sharpie is not a technological solution.
    And the other point I'd make is that I believe there is 
significant of money going into counter drone technology that 
is supposed to try to stop bad actors safely when we're talking 
about those that don't integrate geofencing or traceability 
into their own operations.
    Mr. Mullin. Thank you. My time has expired.
    Mr. Chairman, I yield back.
    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    I will now recognize myself for 5 minutes for questions. 
And Mr. Walden, just very briefly, do you at Intel have cyber 
security solutions to prevent unauthorized users from 
controlling your device?
    Mr. Walden. Yes, we do, and once again, security is another 
area where we hold that very highly as part of our values 
together with privacy.
    From a cyber security perspective it's connected technology 
such as UAVs, clearly, will be subject to cyber tax and we know 
that is going to happen and we just need to be one step ahead 
and continue innovating.
    We haven't implemented a security development life cycle 
which is subject to technologies to industry best practice 
testing.
    It is important that UAVs are subject and then tested alike 
and we are committed to doing that and working with agencies 
and others to help move that forward.
    Mr. Burgess. Well, thank you for that. I would remind you I 
try to stay one step ahead of very clever and very nimble 
people who have no end of great ideas on how to thwart things 
that we think are good safeguards to put in place.
    Mr. Walden. Yes, sir.
    Mr. Burgess. Mr. Wynne, I just wanted to ask you, like you 
I am no longer current but I am a licensed general aviation 
pilot, instrument rated.
    I appreciate your comments in some type of certification 
and knowledge of airspace maps. And I guess if I'm 
understanding some of the other testimony it's possible to 
program one of these drone devices so that it could not enter, 
say, Class B airspace.
    And where I live in Lewisville, Texas, the southern part of 
the city of Lewisville, is in the area that is regulated from 
the surface to 10,000 feet around DFW Airport. So do I 
understand that concept correctly?
    Mr. Wynne. Yes, sir. And prohibited airspace and restricted 
airspace and there was an announcement yesterday of one of the 
solutions that would do that literally real time with the 
drone.
    Mr. Burgess. Now, when you first start flying you fly under 
visual flight rules, see and avoid and what Mr. Walden has 
shown us this morning is kind of a new take on that.
    There is see and avoid technology that they have built into 
this, something that looks enormously helpful and beneficial if 
I'm understanding it correctly. Would that be your take also?
    Mr. Wynne. Absolutely, sir. To the extent that we can 
perfect sense and avoid, detect and avoid technology I don't 
know why we wouldn't deploy that on all aircraft.
    Mr. Burgess. I wondered the same thing.
    And then Professor Kaminski and Mr. Walden, a question for 
both of you. We do spend a lot of time up here talking about 
privacy and it is important but in this situation in particular 
comes to mind whose privacy is it.
    Professor Kaminski, you referenced a First Amendment right 
to record. Did I hear that correctly?
    Ms. Kaminski. Yes.
    Mr. Burgess. So you have a right to record, and I 
understand that has been challenged sometimes. People have 
gotten into some difficulty recording just with an Iphone on 
the street recording an altercation or police activity. But 
there is that right to record.
    Ms. Kaminski. It's a developing right. A number of circuits 
have recognized it in a restricted way. So generally it's been 
recognized as a right to record matters of public interest or 
public officials, yes.
    Mr. Burgess. So then this pushes the boundary of public 
access, I guess. You fly a drone over your neighbor's back yard 
and take a picture of their barbecue to see who's there, 
perhaps a political figure, perhaps whoever, criminal figure, 
and who has the right of privacy in that instance? Is it the 
backyard owner or is it the drone owner?
    Ms. Kaminski. Right. So I'm going to actually add in the 
right to privacy for the drone owner is implicated by a 
registration system, right, so the national registration system 
that the FAA is putting in place ostensibly makes it hard to 
operate a drone in private, right.
    So in the scenario that you gave California has an anti-
paparazzi law that creates a constructive invasion of privacy.
    When you look into an area you previously could not have 
accessed but for physical trespass. So there are these attempts 
at the state level to define privacy in those scenarios that it 
will stand up against any assertive First Amendment right to 
record.
    Mr. Burgess. Because that actually has happened with 
recording celebrity wedding and then that type of things.
    So Mr. Walden, are you looking at technology that would fit 
with that paradigm or is that just too hard and we'll have to 
leave that up to the local sheriffs and enforcers?
    Mr. Walden. I'd say that we don't have the answer. We are 
developing our technologies in ways to protect consumer 
privacy.
    We are working with the NTIA on privacy best practices. We 
do agree that it's an issue and we don't have the answer right 
now but we absolutely are open to working together in finding a 
technological solution.
    Mr. Burgess. Unlike anything else, the technology is 
proceeding much more rapidly than this humble subcommittee. But 
we do welcome the opportunity to hear from all of you.
    We want to keep this conversation going because this is 
obviously, not a completed product.
    Are there any other members that wish any additional time 
for questions?
    Seeing that there are no further members wishing to ask 
questions, I do want to thank each of our participants.
    Yes. Absolutely. The gentleman is recognized.
    Mr. Mullin. I just want to follow up real quick. Maybe not 
follow up, kind of change directions just a second.
    First of all, I got to brag a little bit on our state. 
University of Oklahoma--actually, I'm sorry, Oklahoma State 
University--I apologize. That's where I went to school. I 
should have got that right. There's a little bit of a game 
coming up in a few weeks.
    Anyway, they have been the leader in this for quite some 
time. In fact, they offered the first graduate degree for UAS 
and we're proud of that.
    I also, at the University of Tulsa, which--give me a second 
here, I got to brag on my nephew, he plays football for them, 
Kyle McLaughlin--they have an advanced study going in right 
now--and Mr. Walden, this is for you--that at the University of 
Tulsa they are in the process of looking at cyber security 
space.
    Is there a concern with cyber security? I know they have 
been looking into vehicles lately. But now they switched it to 
the UAS and I am concerned about it from some of the briefings 
that we've received.
    Have you have any reason to raise concerns on this yet?
    Mr. Walden. So we are actually working with multiple 
universities in cyber security. We actually have sponsored the 
chair at University of Florida where they have set up a cyber 
security----
    Mr. Mullin. Why Florida? Why not Oklahoma?
    Mr. Walden. Pardon? We might be working with Oklahoma. I'm 
embarrassed to say I'm not sure.
    But yes, I think that, we have recognized years ago that 
cyber security is an area where you need to continually stay 
ahead and, as I think Mr. Burgess mentioned, the bad guys are 
going to continue trying to go fast than we are and we are 
looking to universities and partnering with them on ways of 
preventing cyber security attacks.
    Mr. Mullin. Good.
    Mr. Villasenor. I was just going to add that, one, cyber 
security is an extremely important theme and one that is 
applicable to the Internet of things in its entirety and what I 
often say is that connectivity has outpaced security.
    So in the rush to create things that are highly connected 
sometimes we find that there are unintended linkages that--no 
one intentionally left these holes there but they're there 
nonetheless and they are always found and they are always 
exploited.
    So it's an incredibly important thought and one that we 
should do our best to stay in front of. But even then it's 
going to be impossible to get 100 percent correct.
    Mr. Mullin. OK. That's it. I yield back. Thank you.
    Mr. Burgess. The chair thanks the gentleman.
    Oh, gentleman from Vermont recognized for 5 minutes.
    Mr. Welch. Thanks very much, Mr. Chairman.
    Thanks for that flight, by the way. After the committee is 
over let's get those things revved up.
    Thanks so much for coming in. One of the things that we had 
recently was an incredible natural disaster in Vermont--
tropical storm Irene, nearly a billion dollars worth of damage. 
A lot of folks stranded.
    And it just seems--I'm sorry, I missed some of the hearing 
but it seems obvious that drones could be very useful in an 
emergency situation getting some information that's really 
relevant to first responders to families.
    I'll start with you, Mr. Walden, if you want to comment on 
how you see drones as being a useful tool in the wake of 
catastrophic events.
    Mr. Walden. I agree 100 percent, and not only for 
catastrophic events but also the ability for a single operator 
to fly multiple drones in a safe manner to also help. 
Otherwise, you're going to have lots and lots of people doing 
it.
    So I think back to--we need to, with the regulatory 
committees in enabling single operators to fly multiple drones 
as well as line of sight--out of line of sight because in the 
case of natural disasters you're going to need that 
technological capability.
    Mr. Welch. OK. Professor, how do I say--Villanor? No, no, 
I'd like to do it right.
    Mr. Villasenor. Villasenor.
    Mr. Welch. Villasenor. Thank you.
    Professor Villasenor, are there any legal impediments to 
being able to exploit the drone technology in the situation of 
the catastrophic----
    Mr. Villasenor. Well, certainly, there is regulatory 
impediments. For example, beyond line of sight, autonomous 
flight is something which is nowhere near being--there is not a 
regulatory framework for doing that any time that I can see in 
the immediate future.
    And that is, as Mr. Walden pointed out, that is going to be 
essential, for example, to deploy a set of unmanned aircraft to 
sweep through an area that might be miles away from the people 
controlling it. So that's an important area.
    Mr. Welch. All right. Is that something that would--I guess 
we can talk about that after. Thank you.
    In addition a lot of folks like the recreational use of 
drones but they can be, as you pointed out, I think, benefits 
to consumers in many contexts such as real estate surveying, 
property maintenance, farming, insurance claims management. The 
drones could minimize potentially the time and cost for 
consumers and businesses in all of those sectors.
    Has any one of you studied the economic benefit of drones 
to consumers? Mr. Wynne.
    Mr. Wynne. It's difficult to actually capture it. The 
forecast that we're operating with today, which is currently 
being updated, of $82 billion in economic impact over the first 
10 years, once we have integration into the national air space 
system, does not contemplate the value added to consumers 
specifically.
    That is just specifically in our community. So the value to 
the agricultural sector to existing business models, whether 
it's insurance or utilities or construction, et cetera, that's 
on top of that economic forecast.
    If I might, sir, I'd also thank you for your question about 
disaster relief. We currently have Global Hawks flying off the 
east coast of Africa collecting data for hurricanes and doing 
hurricane hunting that--a little bit safer and a little bit 
more comfortable to be on the ground and actually penetrate----
    Mr. Welch. Thank you. I've got one more minute so thank you 
very much for that. I thought I'd ask Professor Kaminski a 
question.
    There is great commercial and consumer interest in drones. 
That interest has surged. There's a number of questions that 
have come up about what the limits are, what the regulations 
need to be.
    Do you have any opinion as to whether it makes sense for 
the GAO to study current and potential commercial benefits of 
drones?
    Ms. Kaminski. I think that would be useful, especially if 
there is some way of categorizing what the different kinds of 
uses are and how the uses impact or don't impact human 
populations.
    Mr. Welch. I thank you all. I thank you, Mr. Chairman, and 
yield back.
    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    Seeing no other members wishing to ask questions, again, I 
want to thank each of you on the panel for participating in 
today's hearing.
    Before we conclude, I would like to include the following 
documents to be submitted for the record by unanimous consent--
a statement for the record from the Motion Picture Association 
of America. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Burgess. Pursuant to committee rules, I remind members 
that they have 10 business days to submit additional questions 
for the record and I ask the witnesses to submit their 
responses within 10 business days upon receipt of the 
questions.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 12:18 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    When innovative ideas become popular, they can be scary. 
They can threaten old ways of doing business and they usually 
conjure worst-case scenarios in public discourse.
    Drones are no exception. And we are now seeing just the tip 
of the iceberg.
    People across the nation are discovering new ways of 
putting drones to work at a rapid pace.
    Over 2,000 drone waivers have been approved and by all 
appearances the vast majority are small businesses. Many of 
these small businesses are in Michigan. One applicant from 
Kalamazoo, in my district, was able to get his application 
approved to use a drone because doing so would significantly 
enhance safety for his employees.
    Inspecting machinery and equipment or capturing video in 
high places is dangerous, and drones are taking over these 
tasks. As we tackle the safety risks with drones in the 
National Airspace System, we should be mindful that they are 
likely to improve safety for workers from wind farms to 
utilities.
    Silicon Valley is working hard to engineer new software 
specifically for drones that will make them useful in ways 
previously unimagined. These innovations on top of innovations 
are America's strong suit and they can't happen if we overreact 
and overregulate.
    This is why we are hosting the Disrupter Series. As new 
technologies emerge, they create issues of first impression 
that must be dealt with thoughtfully and with an eye toward the 
actual harms.
    However, many of the issues that arise have been seen 
before. And history can be instructive.
    Many of us think of the impacts drones will have on our 
privacy. We are accustomed to people walking around with 
cameras and being able to capture us at our worst, but what 
about drones?
    Cameras were in use in the early 1800s, but they really 
only presented privacy concerns after 1888, when the Kodak 
camera was introduced. This placed the power to take 
unauthorized pictures in the hands of the person holding the 
camera.
    Since then, American courts developed tort laws to protect 
against privacy intrusions, which are constantly updated to 
account for technology-driven contexts. In many ways, drones 
are raising the same fundamental questions as the Kodak camera.
    I encourage those in the drone industry to make safety and 
privacy a priority, but I also encourage policymakers to think 
about the actual harms presented and the unintended 
consequences of overly restrictive regulation.
    By imposing bureaucratic solutions in a growing and 
evolving market, we risk shutting down more cost-efficient and 
effective ways of addressing the very harms we seek to 
eliminate.
    I thank the witnesses for their participation today and 
look forward to the discussion.
                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
